         Massachusetts Bay Community College
                  50 Oakland Street
         Wellesley Hills, Massachusetts 02181


       National Science Foundation Award Number
                      DBI - 9731991


                 Financial Audit
                        of
               Financial Schedules
                       and
          Independent Auditors’ Reports



For the Period June 15, 1998 to September 30, 2001




                               Leon Snead & Company, P.C.
                               416 Hungerford Drive, Suite 400
                               Rockville, Maryland 20850
                                               TABLE OF CONTENTS



Executive Summary:

   Background........................................................................................................................................ 1
   Audit Objectives, Scope, and Methodology .................................................................................. 1
   Summary of Audit Results................................................................................................................ 2
   Exit Conference ................................................................................................................................. 4

Audit Findings and Recommendations:

   Independent Auditors' Report on Financial Schedules .................................................................. 5
   Independent Auditors' Report on Compliance with Laws and Regulations
     and Internal Control Over Financial Reporting............................................................................ 7

Financial Schedules and Supplemental Information:

    Schedule A - Schedule of Award Costs (Award No. DBI-9731991) ......................................... 14
    Schedule B - Schedule of Questioned Costs (Award No. DBI-9731991).................................. 15
    Schedule C - Summary Schedule of Award Audited (Award No. DBI-9731991) .................... 19

    Notes to the Financial Schedules .................................................................................................. 22

Appendix A – Massachusetts Bay Community College’s Comments to the Report..............24
                      FOR OFFICIAL USE ONLY


                    REPORT RELEASE RESTRICTION

This report may not be released to anyone outside the National Science
Foundation without advance approval by the NSF Office of Inspector
General. The only exception is an agency involved in negotiating or
administering NSF awards. The information in this report should be
treated as confidential and may not be used for purposes other than
originally intended without prior concurrence from the NSF Office of
Inspector General.
The objectives of our audit were to determine whether:

   1. Costs charged to the NSF award by the MBCC are allowable, allocable, and
      reasonable in accordance with the applicable Federal cost principles and award
      terms and conditions; and

   2. MBCC's systems of internal controls are adequate to properly administer, account
      for, and monitor its NSF award in compliance with NSF and Federal requirements.

Our audit was conducted in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards (1994 Revision) issued by the
Comptroller General of the United States of America, and the National Science Foundation
Audit Guide (September 1996), as applicable. These standards and the National Science
Foundation Audit Guide require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed to the National Science Foundation as
presented in the Schedule of Award Costs (Schedule A), are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in Schedule A. An audit also includes assessing the accounting principles used
and significant estimates made by MBCC, as well as evaluating the overall financial
schedule’s presentation. We believe our audit provides a reasonable basis for our opinion.

SUMMARY OF AUDIT RESULTS

An audit was performed on the financial reports submitted by MBCC to NSF on the NSF
award audited. These costs and the results of our audit are shown in Schedule A and are
summarized as follows:

   NSF Award Number Award Budget                 Claimed Costs    Questioned Costs

      DBI-9731991            $271,099              $266,899           $ 116,393

With the exception of costs claimed totaling $116,393, costs charged by MBCC to the
NSF award were generally reasonable, allowable, and allocable in accordance with the
applicable Federal costs principles and NSF award terms and conditions. The findings
identified in our audit related to every category of claimed costs, which include salaries
and wages, participant support costs, materials and supplies, and the indirect costs. We
found two material internal control weaknesses and one compliance deficiency that could
have an impact on MBCC’s ability to administer, account for, and monitor claimed costs
in compliance with NSF and Federal requirements.

The first material internal control weakness we found was that MBCC did not always
record award expenditures in its accounting system and maintain supporting
documentation for the costs charged to the NSF award. Specifically, we found that
MBCC requested cash advances and claimed costs of $266,899, but only recorded in its
general ledger and provided support for $187,501. Therefore, we questioned the
remaining costs of $79,398, which represents 29 percent of the total claimed costs. This



                                             2
condition occurred because MBCC did not follow its written internal control policies and
procedures, which required that all Federal grants be properly and accurately accounted
for and all expenditures be adequately documented. We believe that one of the reasons
that MBCC did not follow its written policies and procedures was due to a turnover of
senior college administrators and personnel responsible for grant management during the
award period. This resulted in a lack of proper oversight to ensure that all grant
expenditures were properly accounted for and documented. Because MBCC did not
always record award expenditures and maintain source documentation, NSF has no
assurance that the claimed costs were actually incurred and were related to the NSF
award.

The second material internal control weakness we identified was that MBCC did not
adequately support its claimed salaries and wages with after-the-fact labor activity
reports. During the academic year, MBCC used a labor activity reporting system.
However, the awardee did not use this system during the summer months when the
Principal Investigator (PI) and summer-employed faculty counselors worked on the NSF
award. MBCC only provided documents that supported the dollar amounts paid to the
employees, but these documents did not verify the level of effort the employees expended
on the NSF award. MBCC did not follow its written internal control policies and
procedures that required all expenditures to be adequately documented. Because MBCC
did not maintain activity reports to support salaries and wages paid to the PI and faculty
counselors, NSF has no assurance that the claimed costs were reasonable, allocable, and
allowable. As a result, we questioned $33,634 of MBCC’s claimed salaries and wages,
which represents 12 percent of the total claimed costs.

The remaining $3,361 of the $116,393 we questioned relates to claimed materials and
supplies. We questioned these costs because MBCC spent award funds budgeted for
laboratory materials for an annual contract to service laboratory equipment that benefited
the NSF award and the awardee’s other research projects. We believe that these types of
costs should have been included in MBCC’s indirect cost pool because these costs
benefited all projects and students that used the laboratory equipment. This condition
occurred because MBCC did not have written internal control policies and procedures
requiring the allocation of indirect-type costs to an indirect cost pool. As a result, MBCC
did not use the funds budgeted for laboratory materials in the manner anticipated by NSF
when the award was made. Instead, the awardee used funds budgeted for direct activities
to support its indirect activities. We identified this finding as a compliance deficiency.

We believe that if MBCC fails to address these material internal control weaknesses and
compliance deficiency, similar problems may occur on other existing and future NSF
awards. MBCC has one active NSF award related to the ROMP project totaling
approximately $130,000.

To address the internal control weaknesses, we recommend that NSF’s Division Directors
of the Division of Acquisition and Cost Support (DACS) and the Division of Grants and
Agreements (DGA) require for current and future awards that MBCC adhere to its
written internal control policies and procedures related to Federal grant management to



                                            3
ensure that all costs claimed to the NSF award are properly and accurately accounted for
in its accounting system and are supported with adequate documentation. To address the
compliance deficiency, we recommend that DACS and DGA require MBCC for current
and future awards to develop written internal control policies and procedures to ensure
the costs that benefit common or joint objectives and that cannot be readily and
specifically identified solely with the NSF award be considered in MBCC’s indirect cost
pool and not be charged directly to the NSF award.


EXIT CONFERENCE

An exit conference was held on December 14, 2001 at MBCC’s office located in Wellesley
Hills, Massachusetts. Preliminary findings and recommendations as well as other
observations were discussed with those attending.



Representing MBCC were:


    Name                           Title

    XXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXXXXXX
    XXXXXXX                        XXXXXXXXXXXXX


Representing Leon Snead & Company, P.C. was:


    Name                          Title

    XXXXXXXXXXXXX                 XXXXXXXXXXXXX




                                           4
The results of our tests of compliance disclosed three instances of noncompliance that are
required to be reported herein under Government Auditing Standards and the National
Science Foundation Audit Guide. One of these instances is discussed below. The
remaining two instances are also internal control weaknesses that are discussed in
Finding Numbers 2 and 3 in the Internal Control Over Financial Reporting section of this
report. We considered these instances of noncompliance in forming our opinion of
whether the Schedule of Award Costs (Schedule A) presented fairly in all material
respects, the costs claimed by MBCC on the Federal Cash Transactions Reports – Federal
Share of Net Disbursements for the period June 15, 1998 through September 30, 2001 in
conformity with the NSF award terms and conditions, and determined that this report
does not affect our report dated December 14, 2001 on the financial schedule.

Finding No. 1 — Budgeted Direct Costs Used For Indirect Activities

MBCC spent award funds budgeted for laboratory materials (such as plasmids,
sequencing vectors, cell culture media, enzymes, antibodies, etc.) to support its indirect
activities that benefited the NSF award and the awardee’s other research projects.
Specifically, we found that MBCC claimed $3,361 for an annual contract to service
laboratory equipment. MBCC budgeted laboratory materials for use by ten ROMP
students, but we found that the annual contract to service laboratory equipment benefited
approximately 250 biology students who used the laboratory each year. We believe that
this type of maintenance cost should have been included in MBCC’s indirect cost pool
because this cost benefited all students that used the laboratory equipment. OMB
Circular A-21, Subpart B. 4. defines indirect costs as costs that are incurred for common
or joint objectives and, therefore, cannot be identified readily and specifically with a
particular sponsored project, an instructional activity, or any other institutional activity.
This condition occurred because MBCC did not have written internal control policies and
procedures requiring the allocation of indirect-type costs to an indirect cost pool. As a
result, MBCC did not use the funds budgeted for laboratory materials in the manner
anticipated by NSF when the award was made. Instead, the awardee used funds budgeted
for direct activities to support its indirect activities. Therefore, we questioned $3,361 of
costs claimed by MBCC for materials and supplies. (See Schedule B, Note B-3b.)

Recommendation No. 1

We recommend that NSF’s Division Directors of the Division of Acquisition and Cost
Support (DACS) and the Division of Grants and Agreements (DGA) require MBCC, for
current and future awards to develop written internal control policies and procedures to
ensure that costs that benefit common or joint objectives and that cannot be readily and
specifically identified solely with NSF award be considered in MBCC’s indirect cost pool
and not be charged directly to the NSF award.

MBCC Comments

MBCC officials disagreed with the finding and recommendation. They provided a copy
of an invoice for a preventive maintenance agreement showing the principal



                                             8
investigator’s initial and the annotation “NSF”. The officials stated that the principal
investigator directed MBCC “…to pay [the] invoice with NSF funds since its use was for
grant related activities only.”

Auditors’ Response

We found MBCC’s comments to be non-responsive to the finding and recommendation.
As noted in our finding, we found that the annual contract to service laboratory
equipment benefited approximately 250 biology students who used the laboratory each
year and the equipment was not restricted for the use of NSF grant activities only. The
invoice demonstrated only the dollar amount of the agreement to service laboratory
equipment, which was charged to the NSF award. However, the invoice provided no
support for the assertion that the equipment was used only for NSF award related
activities. We continue to believe that the cost of the preventive maintenance agreement
should have been included in the indirect cost pool. Therefore, the finding and
recommendation remain as stated.

             INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of MBCC is responsible for establishing and maintaining internal
control. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs of internal control policies and
procedures. The objectives of internal control are to provide management with
reasonable, but not absolute assurance that assets are safeguarded against loss from
unauthorized use or disposition, and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of financial
schedules in accordance with accounting principles prescribed by the NSF. Because of
inherent limitations in any internal control, errors or irregularities may nevertheless occur
and not be detected. Also, projection of any evaluation to future periods is subject to the
risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for
the period June 15, 1998 to September 30, 2001, we obtained an understanding of
MBCC’s internal control over financial reporting. With respect to the internal control
over financial reporting, we obtained an understanding of the design of relevant policies
and procedures and whether the procedures have been placed in operation. Furthermore,
we assessed control risk in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedule and not to provide an opinion on the
internal control. Accordingly, we do not express such an opinion.

Our consideration of internal control over financial reporting would not necessarily
disclose all matters related to internal control over financial reporting that might be
reportable conditions under standards established by the American Institute of Certified
Public Accountants, and accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design


                                             9
or operation of the internal control over financial reporting that, in our judgment, could
adversely affect the entity’s ability to record, process, summarize and report financial
data in a manner that is consistent with the assertions of management in the financial
schedule. A material weakness is a reportable condition in which the design or operation
of one or more of internal control elements does not reduce to a relatively low level the
risk that misstatements in amounts that would be material in relation to the financial
schedule being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal control, misstatements due to error or fraud may
nevertheless occur and not be detected.

We noted two matters involving the internal control over financial reporting and its
operations that we consider to be material weaknesses as defined above. We consider the
conditions that MBCC’s award expenditures were not always recorded and supported,
and salaries and wages were not supported with activity reports to be material internal
control weaknesses.

Finding No. 2 — Award Expenditures Not Always Recorded and Supported

MBCC did not always record award expenditures in its accounting system and maintain
supporting documentation for the costs charged to the NSF award. During the period
September 1998 through May 2001, MBCC obtained $266,899 using the NSF’s FastLane
cash request system, and claimed costs in the same amount in its FCTR for the quarter
ending September 30, 2001. However, we found that MBCC only recorded in its
accounting system and provided supporting documentation for $187,501 of the claimed
costs, and could not support or show relevance to the award for the remaining $79,398.
Of the $79,398, we found that MBCC prepared a journal entry to transfer $14,250 from
the NSF award to one of the college’s general funds, but never adjusted its claim on NSF
award during the audit period. For the remaining $65,148 of claimed costs, MBCC did
not record the costs in its accounting system and could not provide documentation to
show that the costs were expended for the award. MBCC budgeted, drew down,
recorded, and claimed award funds for each year as follows:


                                                         Claimed Costs
                               Draw         Recorded       Recorded
                              Downs/          and           Journal    Unrecorded
                 MBCC          Cost         Provided         Entry        and
       Year      Budget       Claimed       Support        Transfer    Unsupported

     1998        $ 68,933      $ 39,371       $ 45,113      $ 14,250        $ 9,570
     1999          68,933        73,150         56,581                       12,352
     2000          68,933        25,345         65,820                        3,113
     2001          60,100       129,033         19,987      _______          40,113
     Total      $266,899       $266,899      $187,501       $ 14,250        $65,148



                                           10
OMB Circular A-110, Subpart C, Section 21 (b) (2) states that awardees’ financial
management systems shall provide accounting records that identify adequately the source
and application of funds for Federally-sponsored activities. These records shall contain
information pertaining to Federal awards, authorizations, obligations, unobligated
balances, assets, outlays, income, and interest. In addition, OMB Circular A-110,
Subpart C, Section .21 (b) (7) states that awardees’ financial management systems shall
provide for accounting records that are supported by source documentation. MBCC did
not follow its written internal control policies and procedures, which required that all
Federal grants be properly and accurately accounted for and all expenditures be
adequately documented. We believe that one of the reasons that MBCC did not follow its
written policies and procedures was due to a turnover of senior college administrators and
personnel responsible for grant management during the award period. This resulted in a
lack of proper oversight to ensure that all grant expenditures are properly accounted for
and documented. Because MBCC did not always record award expenditures and
maintain source documentation, NSF has no assurance that the claimed costs were
actually incurred and were related to the NSF award. Therefore, we questioned $79,398
of the costs claimed for salaries and wages, participant support costs, materials and
supplies, and indirect costs. (See Schedule B, Notes B-1 through B-4).

Recommendation No. 2

We recommend that NSF’s Division Directors of DACS and DGA require that MBCC,
for future and current awards, adhere to its written internal control policies and
procedures related to grant management to ensure that all costs claimed to the NSF award
are properly and accurately accounted for in its accounting system and supported with
adequate documentation.

MBCC Comments

MBCC officials requested additional details regarding the unsupported and unrecorded
findings so that they can either agree with the findings or provide sufficient
documentation to support the expenditures. The officials stated that MBCC’s books and
records are audited annually and the systems are tested annually to ensure adequacy of
internal controls. The officials further stated that those audits showed no findings
regarding unrecorded transactions, especially payroll transactions.

Auditors’ Response

We found MBCC’s comments to be non-responsive to the finding and recommendation.
MBCC’s response requested “…additional details regarding the unsupported and
unrecorded findings….” However, in the absence of claimed costs being recorded in the
accounting system and the existence of supporting documentation for claimed costs,
which is the basis for this finding, we have no additional details available to provide to
MBCC. The officials provided no additional reports or other documentation to support




                                           11
their assertions that the books and records contain all of the costs charged to the NSF
award. Therefore, the finding and recommendation remain as stated.

Finding No. 3 — Salaries and Wages Not Supported With Activity Reports

MBCC claimed salaries and wages of $33,634 for the principal investigator (PI) and
faculty counselors that were not supported by after-the-fact activity reports. OMB
Circular A-21, Section J. 8. b. and c. in part requires that (1) the distribution of salaries
and wages will be based on payrolls documented in accordance with the generally
accepted practices of the awardee, (2) the payroll distribution system will reasonably
reflect the activity for which the employee is compensated, and (3) the method used by
the awardee must recognize the principle of after-the-fact confirmation or determination
so that costs distributed represent actual costs. During the academic year, MBCC used a
labor activity reporting system. However, MBCC did not use this system during the
summer months when the PI and summer-employed faculty counselors worked on the
NSF award. To support the claimed salaries and wages of the PI and faculty counselors,
MBCC provided journal entries, cancelled checks’ copies, purchase orders, and personnel
action request forms. These documents only supported the dollar amounts paid to the
employees rather than the employees’ after-the-fact effort expended on the award.
MBCC did not follow its written internal control policies and procedures, which required
that all expenditures be adequately documented. Because MBCC did not maintain
activity reports in accordance with OMB Circular A-21, Section J. 8 requirements to
support salaries and wages paid to the PI and faculty counselors, NSF has no assurance
that the claimed costs were reasonable, allocable, and allowable. Therefore, we
questioned $33,634 of the claimed PI and faculty counselors’ salaries and wages. (See
Schedule B, Note B-1b.)

Recommendation No. 3

We recommend that NSF’s Division Directors of DACS and DGA require that MBCC,
for current and future awards, support salaries and wages charged to the NSF award with
activity reports in accordance with OMB Circular A-21, Section J. 8 requirements.

MBCC Comments

MBCC officials disagreed with the finding and recommendation. They asserted that all
necessary reporting was provided to NSF as required under the “terms of the audit.”
They also stated that they are currently trying to obtain reports filed with NSF during the
period under audit because copies may not exist on campus due to the departure of the
principal investigator.

Auditors’ Response

We found management’s comments to be non-responsive. As noted in our finding, MBCC
did not use its labor activity reporting system to track the PI’s and faculty counselors’
effort during the summer months when they worked on the NSF award. MBCC officials



                                             12
                                                                                                  Schedule A

                                  Massachusetts Bay Community College
                         National Science Foundation Award Number DBI-9731991
                                          Schedule of Award Costs
                                From June 15, 1998 to September 30, 2001
                                                  Interim

                                                                                                  Questioned Costs
                                                                                   Claimed
                                                                                     Costs
                                                         (A)                         After
                                       Approved        Claimed       Reclassi-     Reclassi-                      Schedule
          Cost Category                 Budget          Costs        fications     fications      Amount          Reference

Direct Costs:
 Salaries and Wages:
    Principal Investigator              $XXXXX          $XXXX        $XXXXX         $XXXX            $23,389        B-1
    Faculty Counselors                   XXXXX           XXXX                 X       XXXX            42,750        B-1
                      Subtotal          $XXXXX          $XXXX        $XXXXX         $XXXX            $66,139
 Participant Support Costs:
    Student Stipends                    $XXXXX          $XXXX           $     X     $XXXX            $20,813        B-2
    Student Wages                          XXXX          XXXX                 X       XXXX            17,400        B-2
                      Subtotal          $XXXXX $ XXXX               $         X     $ XXXX           $38,213

  Materials and Supplies:

        Laboratory Materials             $ XXXX         $XXXX        $XXXXX         $ XXXX           $10,231        B-3
  Travel                                   XXXX                 X             X             X               0
  Total Direct Costs                     $261,899      $257,699         $      0   $257,699        $114,583
Indirect Costs                               9,200         9,200               0        9,200          1,810        B-4

Total Costs                              $271,099      $266,899         $      0   $266,899        $116,393


  (A)     The total representing costs claimed agreed with the expenditures reported on the Federal Cash
          Transactions Report - Federal Share of Net Disbursements as of the quarter ended September 30, 2001.
          Costs claimed reported above exceeded the costs recorded in MBCC’s books of accounts by $65,148. (See
          Finding and Recommendation No. 2 in the Independent Auditor’s Report on Compliance with Laws and
          regulations and Internal Control Over Financial Reporting.) See Schedule B and the accompanying notes
          to this financial schedule.



                                                           14
                                                                              Schedule B

                     Massachusetts Bay Community College
            National Science Foundation Award Number DBI-9731991
                          Schedule of Questioned Costs
                   From June 15, 1998 to September 30, 2001



1. Salaries and Wages — $66,139

We questioned claimed salaries and wages totaling $66,139 paid to the principal
investigator (PI) and faculty counselors because MBCC had (a) not recorded or provided
source documentation for $32,505 and (b) inadequate documentation to support $33,634,
detailed as follows:

   (a)   Unrecorded and No Source Documentation. MBCC did not record $32,505 of
         salaries and wages for the PI and faculty counselors in its accounting system
         and could not provide documentation to show that the costs were expended for
         the NSF award. OMB Circular A-110, Subpart C, Section 21 (b) (2) states that
         awardees’ financial management systems shall provide accounting records that
         identify adequately the source and application of funds for Federally-sponsored
         activities. These records shall contain information pertaining to Federal
         awards, authorizations, obligations, unobligated balances, assets, outlays,
         income, and interest. In addition, OMB Circular A-110, Subpart C, Section .21
         (b) (7) states that awardees’ financial management systems shall provide for
         accounting records that are supported by source documentation. MBCC did not
         follow its written internal control policies and procedures, which required that
         all Federal grants be properly and accurately accounted for and all expenditures
         be adequately documented. We believe that one of the reasons that the written
         policies and procedures were not followed was due to a turnover of senior
         college administrators and personnel responsible for grant management during
         the award period. Because MBCC did not always record award expenditures
         and maintain source documentation, NSF has no assurance that the claimed
         costs were actually incurred and were related to the NSF award. Therefore, we
         questioned $32,505 of the costs claimed by MBCC for PI’s and faculty
         counselors’ salaries and wages. (See Finding and Recommendation No. 2 in
         the Independent Auditors’ Report on Compliance With Laws and Regulations
         and Internal Control Over Financial Reporting.)

   (b)   Inadequate Supporting Documentation. MBCC claimed salaries and wages of
         $33,634 for the PI and faculty counselors that were not supported by after-the-
         fact activity reports. OMB Circular A-21, Section J. 8. b. and c. in part requires
         that (1) the distribution of salaries and wages will be based on payrolls
         documented in accordance with the generally accepted practices of the awardee,
         (2) the payroll distribution system will reasonably reflect the activity for which



                                           15
         the employee is compensated, and (3) the method used by the awardee must
         recognize the principle of after-the-fact confirmation or determination so that
         costs distributed represent actual costs. During the academic year, MBCC used
         a labor activity reporting system. However, MBCC did not use this system
         during the summer months when the PI and summer-employed faculty
         counselors worked on the NSF award. To support the claimed salaries and
         wages of the PI and faculty counselors, MBCC provided journal entries,
         cancelled checks’ copies, purchase orders, and personnel actions request forms.
         These documents only supported the dollar amounts paid to the employees
         rather than the employees’ after-the-fact effort expended on the NSF award.
         MBCC did not follow its written internal control policies and procedures,
         which required that all expenditures be adequately documented. Because
         MBCC did not maintain activity reports in accordance with OMB Circular A-
         21, Section J. 8 requirements to support salaries and wages paid to the PI and
         faculty counselors, NSF has no assurance that the claimed costs were
         reasonable, allocable, and allowable. Therefore, we questioned $33,634 of the
         costs claimed by MBCC for PI’s and faculty counselors’ salaries and wages.
         (See Finding and Recommendation No. 3 in the Independent Auditors’ Report
         on Compliance With Laws and Regulations and Internal Control Over
         Financial Reporting.)

2. Participant Support Costs — $38,213

We questioned $20,813 and $17,400 for costs claimed for student stipends and student
wages, respectively, because MBCC did not record these costs in its accounting system
and could not provide documentation to show that the costs were expended for the NSF
award. OMB Circular A-110, Subpart C, Section 21 (b) (2) states that awardees’ financial
management systems shall provide accounting records that identify adequately the source
and application of funds for Federally-sponsored activities. These records shall contain
information pertaining to Federal awards, authorizations, obligations, unobligated
balances, assets, outlays, income, and interest. In addition, OMB Circular A-110,
Subpart C, Section .21 (b) (7) states that awardees’ financial management systems shall
provide for accounting records that are supported by source documentation. MBCC did
not follow its written internal control policies and procedures, which required that all
Federal grants be properly and accurately accounted for and all expenditures be
adequately documented. We believe that one of the reasons that the written policies and
procedures were not followed was due to a turnover of senior college administrators and
personnel responsible for grant management during the award period. Because MBCC
did not always record award expenditures and maintain source documentation, NSF has
no assurance that the claimed costs were actually incurred and were related to the NSF
award. Therefore, we questioned $38,213 of the costs claimed by MBCC for participant
support costs. (See Finding and Recommendation No. 2 in the Independent Auditors’
Report on Compliance With Laws and Regulations and Internal Control Over Financial
Reporting.)




                                          16
3. Materials and Supplies — $10,231

We questioned claimed materials and supplies totaling $10,231 because MBCC (a) did
not record or provide source documentation for $6,870, and (b) used award funds of
$3,361 for an annual contract to service laboratory equipment that benefited all research
projects, detailed as follows:

   (a)   Unrecorded and No Source Documentation. MBCC did not record $6,870 of
         laboratory materials in its accounting system and could not provide
         documentation to show that the costs were expended for the NSF award.
         OMB Circular A-110, Subpart C, Section 21 (b) (2) states that awardees’
         financial management systems shall provide accounting records that identify
         adequately the source and application of funds for Federally-sponsored
         activities. These records shall contain information pertaining to Federal
         awards, authorizations, obligations, unobligated balances, assets, outlays,
         income, and interest. In addition, OMB Circular A-110, Subpart C, Section .21
         (b) (7) states that awardees’ financial management systems shall provide for
         accounting records that are supported by source documentation. MBCC did not
         follow its written internal control policies and procedures, which required that
         all Federal grants be properly and accurately accounted for and all expenditures
         be adequately documented. We believe that one of the reasons that the written
         policies and procedures were not followed was due to a turnover of senior
         college administrators and personnel responsible for grant management during
         the award period. Because MBCC did not always record award expenditures
         and maintain source documentation, NSF has no assurance that the claimed
         costs were actually incurred and were related to the NSF award. Therefore, we
         questioned $6,870 of the costs claimed by MBCC for materials and supplies.
         (See Finding and Recommendation No. 2 in the Independent Auditors’ Report
         on Compliance With Laws and Regulations and Internal Control Over
         Financial Reporting.)

   (b)   Direct Costs Used For Indirect Activities. MBCC claimed laboratory materials
         totaling $3,361 for an annual contract to service laboratory equipment, which
         benefited MBCC’s NSF award and other research projects and all of its biology
         students who used the laboratory. Specifically, we found that MBCC claimed
         $3,361 for an annual contract to service laboratory equipment.            MBCC
         budgeted laboratory materials for use by ten ROMP students, but we found that
         the annual contract to service laboratory equipment benefited approximately
         250 biology students who used the laboratory each year. We believe that this
         type of maintenance cost should have been included in MBCC’s indirect cost
         pool because this cost benefited all students that used the laboratory equipment.
         OMB Circular A-21, Subpart B. 4. defines indirect costs as costs that are
         incurred for common or joint objectives and, therefore, cannot be identified
         readily and specifically with a particular sponsored project, an instructional
         activity, or any other institutional activity. This condition occurred because
         MBCC did not have written internal control policies and procedures requiring



                                           17
         the allocation of indirect-type costs to an indirect cost pool. As a result, MBCC
         did not use the funds budgeted for laboratory materials in the manner
         anticipated by NSF when the award was made. Instead, the awardee used funds
         budgeted for direct activities to support its indirect activities. Therefore, we
         questioned $3,361 of costs claimed by MBCC for materials and supplies. (See
         Finding and Recommendation No. 1 in the Independent Auditors’ Report on
         Compliance With Laws and Regulations and Internal Control Over Financial
         Reporting.)

4. Indirect Costs — $1,810

We questioned $1,810 of claimed indirect costs because MBCC charged indirect costs to
the award on (a) questioned participant support costs and (b) participant support costs not
eligible for determining allowable indirect costs. (In addition, MBCC did not record in
its accounting system these claimed indirect costs that we questioned. See Finding and
Recommendation No. 2 in the Independent Auditors’ Report on Compliance With Laws
and Regulations and Internal Control Over Financial Reporting.) The approved NSF
award budget for indirect costs allowed MBCC to charge indirect costs at a rate of 10
percent only to participant support costs for the years 1998, 1999, and 2000, and a fixed
dollar amount of $500 for a May through June 2001 Montserrat project. When an
awardee charges unallowable indirect costs to an award, NSF funds are not utilized as
intended when the award was made. We calculated the questioned indirect costs as
follows:

Participant Support Costs Claimed                                   $   126,600
 Less: Participant Support Cost Questioned                              (38,213)
                                                          Subtotal $     88,387
 Less: Participant Support Costs Claimed in
        Year 2001 But Not Eligible for Indirect Costs                   (19,487)
Audit Determined Participant Support Costs Eligible
for Indirect Costs for the Years 1998, 1999, and 2000               $    68,900



Claimed Indirect Costs                                             $      9,200      (A)
Audit Determined Indirect Costs
   (10% of $68,900) + $500                                                7,390      (B)
Questioned Indirect Costs (A) - (B)                                 $     1,810




                                            18
                                                                                Schedule C

                       Massachusetts Bay Community College
                 Summary Schedules of Award Audited and Audit Results
                     From June 15, 1998 to September 30, 2001

                                  Summary of Award Audited

           Award Number                  Award Period                  Audit Period
            DBI-9731991                06/15/98 – 05/31/03          06/15/98 – 09/30/01

         Award               Type of
        Number               Award                        Award Description
       DBI-9719191            Grant        The purpose of the award is to fund the Research
                                           Opportunities for Minorities Program (ROMP),
                                           which is a research-training program for
                                           undergraduate and post-baccalaureates that belong
                                           to groups underrepresented in basic-science
                                           research. The program provides participants up to
                                           two years of intensive research training in
                                           molecular biology through the biotechnology
                                           programs at MBCC.

                          Summary of Questioned Costs by Award

        NSF Award
         Number              Award           Claimed          Questioned     Unsupported
                             Budget           Costs             Costs           Costs
       DBI-9719191          $271,099         $266,899          $116,393       $111,222

                        Summary of Questioned Cost by Explanation

                                           Questioned    Unsupported         Non-          Internal
              Condition                      Cost           Cost           Compliance      Control
                                            Amount         Amount                         Weaknesses
(a)   MBCC did not record $32,505 of
      salaries and wages for the
      Principal Investigator (PI) and
      faculty counselors in its             $66,139          $66,139          Yes              Yes
      accounting system and did not
      provide documentation to show
      that the costs were expended for
      the NSF award. MBCC claimed
      salaries and wages of $33,634 for
      the PI and faculty counselors that



                                              19
                                           Questioned   Unsupported     Non-        Internal
               Condition                     Cost          Cost       Compliance    Control
                                            Amount        Amount                   Weaknesses
       were not supported by after-the-
       fact activity reports.
(b)   MBCC claimed $20,813 and
      $17,400 for student stipends and
      student wages, respectively, but
      did not record these costs in its     $38,213       $38,213        Yes          Yes
      accounting system and did not
      provide documentation to show
      that the costs were expended for
      the NSF award.
(c)  MBCC did not record $6,870 of
     laboratory materials in its
     accounting system and did not
     provide documentation to show
     that the costs were expended for        $6,870       $ 6,870        Yes          Yes
     the NSF award.
(d) MBCC claimed laboratory
     materials totaling $3,361 for an
     annual contract to service              $3,361       $    0         Yes          No
     laboratory equipment, which
     benefited all of MBCC’s research
     projects.
(e) We questioned $1,810 of claimed
      indirect costs because MBCC
      charged indirect costs to the
      award on (1) questioned
      participant support costs and (2)      $1,810       $     0        No           No
      participant support costs not
      eligible for determining
      allowable indirect costs. In
      addition, MBCC did not record in
      its accounting system the claimed
      indirect costs that we questioned.
Total Questioned/Unsupported                $116,393     $111,222




                                              20
           Summary of Non-Compliance Issues and Internal Control Weaknesses

                                                                       Is Internal
               Condition                    Non-       Internal          Control
                                          compliance   Control         Weakness
                                                                      Material or
                                                                      Reportable?

(a)   MBCC spent award funds
      budgeted for laboratory materials
      for an annual contract to service      Yes          No              N/A
      laboratory equipment that
      benefited the awardee’s other
      research projects.
(b)    MBCC did not always record
       award expenditures and maintain
       supporting documentation for the      Yes         Yes            Material
       costs charged to the NSF award.
(c)   MBCC claimed salaries and
       wages for the principal
       investigator and faculty              Yes         Yes            Material
       counselors that were not
       supported by after-the-fact
       activity reports.




                                            21
                        Massachusetts Bay Community College
                           Notes to the Financial Schedules
                       From June 15, 1998 to September 30, 2001


Note 1: Summary of Significant Accounting Policies

Accounting Basis

The accompanying financial schedule has been prepared in conformity with National
Science Foundation (NSF) instructions. The Schedule of Award Costs (Schedule A) has
been prepared from the reports submitted to the NSF and information obtained from the
accounting records maintained for the award by MBCC. The basis of accounting used in
preparation of these reports differs from generally accepted accounting principles. The
following information summarizes these differences:

   A. Equity

   Under terms of the award, all funds not expended according to the award agreement and
   budget at the end of the award period are to be returned to NSF. Therefore, the awardee
   does not maintain any equity in the award and any excess cash received from NSF over
   final expenditures is to be repaid to NSF.

   B. Equipment

   Equipment is charged to expense in the period during which it is purchased instead of
   being recognized as an asset and depreciated over its useful life. As a result, the
   expenses reflected in the Schedule of Award Costs (Schedule A) include the cost of
   equipment purchased during the period rather than a provision for depreciation.

   Except for awards with nonstandard terms and conditions, title to equipment under
   NSF awards vests in the recipient, for use in the project or program for which it was
   acquired, as long as it is needed. The recipient may not encumber the property
   without approval of the federal awarding agency, but may use the equipment for its
   other federally sponsored activities, when it is no longer needed for the original
   project.

   C. Inventory

   Minor materials and supplies are charged to expense during the period of purchase.
   As a result, no inventory is recognized for these items in the financial schedule.

The departure from generally accepted accounting principles allows NSF to properly
monitor and track actual expenditures incurred by the awardee. The departure does not
constitute a material weakness in internal controls.



                                            22
Note 2: Income Taxes

MBCC is an agency of the Commonwealth of Massachusetts and is exempt from Federal
taxes under the Internal Revenue Code. Grant funds expended for salaries and stipends
are subject to withholding for Federal and state taxes.




                                         23
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXx

January 15, 2004



XXXXXXXXXXXXXXX
Leon Snead & Company, P.C. 416
Hungerford Drive Suite 400 Rockville,
Maryland 20850

Re: NSF Award DBI-9731991
XXXXXXXX XXXXXXXXX,

The College is in receipt of your letter dated December 10, 2004. After considerable
consultation with XXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXX and myself, we respectfully request additional details
regarding the unsupported and unrecorded findings, so that we can either agree with
your findings or provide you with sufficient documentation to support the
expenditures. As was noted in prior correspondence with your office, the exit
conference was not conducted to the satisfaction of the College. No detailed reports
were provided to suggest that there were remaining outstanding items. To this end we
would like to be able to bring the outstanding items to closure and the only way this
can be accomplished is for the College to ensure that all existing documentation is
provided to you.

Reference is made in your letter to NSF "activity reports" not made available during the
audit. All necessary reporting were made to NSF as required under the terms of the audit.
The College is currently in contact with NSF to obtain copies of these reports submitted
manually in the earlier years and on Fast Lane in the most recent years under audit. We
will provide you with these reports obtained through assistance from NSF it is
unfortunate that we may not have copies of these reports on campus due to the
departure of Dr. XXXXXX. We were unsuccessful in seeking his cooperation to
bring in his files during your audit.

Additionally, the College does not agree that any of the costs claimed on this grant
were unrecorded in the accounting system. The College's books and records are
audited on an annual basis by an independent certified public accountant. Our
systems are tested on an annual basis to insure the adequacy

                                                                     www.massbay.edu




                                                   24
                                     -2-                           January 15, 2004




of our internal controls. No findings were noted regarding unrecorded
transactions, especially payroll transactions.

Lastly, I have enclosed a copy of the invoice processed for payment in
the amount of $3,361 for an annual contract to service laboratory
equipment. As I discussed with you the College was directed by the principal
investigator, XXXXXXXXXXXX to pay this invoice with NSF funds
since its use was for grant related activities only. You will note his
statement to pay with NSF funds on the face of the invoice. I have
included an additional document to support that the signature on the invoice is
XXXXXXXXXX, since it is not legible. I trust this may provide sufficient
documentation regarding this expenditure.

Please contact me at your earliest convenience if you have any questions
regarding our request for additional details. The College will make every
effort to expedite the research to conclude this audit as soon as the
additionally requested documentation is received from your office.

Sincerely,

XXXXXXXXXXXXXXXXXX


XXXXXXXXXX
XXXXXXXXXX

Enclosures


cc:   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                       25
       STERIS°                                                                                 XXXXXXX




             J`   PREVENTIVE MAINTENANCE AGREEMENT RENEWAL - PART 6 LABOR

                      DATE PRINTED:                           05/19/00
                      AGREEMENT#:                             XXXXXXXXX


INVOICE TO:        XXXXXXXX                                             EQUIPMENT LOCATION:        XXXXXXXXX
Mass Bay Community College                                              Mass Bay Community College
ATTN:
50. Oakland Street                                                      50 Oakland Street
Wellesley Hills          MA      02181                                  Wellesley Hills       MA         02181


DSM: XXXXXXXXXXXXXXXXXXX                                       ORG-   XXX
TECH: XXXXXXXXXXXXXX                                           CLOCK#: XXXXX
                                                                           PARTS PO#:                ***PO REQUIRED
CONTRACT TERM:        XXXXXXXXXXXXXXX
                                                         CUSTOMER PURCHASE ORDER#:

DESCRIPTION/                 SERIAL#                          CONTROL# LOCATION/                          BILLING PRICE
INSPECTION SCHEDULE                                           CONTRACT TYPE

38" RENAISSANCE GRAV STE! XXXXXXX                              BIO-TECH LAB                                      $3,360.86


QUARTERLY IN NOV,FEB,MAY&AUG

SITE/TECH SUB TOTAL:                                                                                             $3,360_86

BILLING PRICE TOTAL:                                                                                             $3,360.86

                                                                                   BILLING VALUE:                $3,360.86
                    NO OF ITEMS TO BE INSPECTED: 1


                    BILLING FREQUENCY: Every 12 Months                 ANNUAL CONTRACT VALUE:                    $3,360.86



                                                                       TOTAL CONTRACT VALUE:                     $3,360.86




        CUSTOMER                                             STERIS
        ACCEPTANCE ________________________ / ___ / ______ CORPORATION______________________________

                                           PAGE     2    OF        2

                                                  CUSTOMER




                                                              26
